Record Press Inc., 229 West 36th Street, New York, N.Y. 10018•
Tel: (212) 619-4949• Fax No. (212) 608-3141
STATE OF NEW YORK,

SS:

[79112]

AFFIDAVIT OF SERVICE

COUNTY OF NEW YORK
Howard Daniels being duly sworn, deposes and says that deponent is not party to the action, and is
over 18 years of age.
That on the 8th day of July 2019 deponent served 3 copies of the within
PETITION FOR A WRIT OF CERTIORARI

upon the attorneys at the addresses below, and by the following method:
BY FEDERAL EXPRESS NEXT BUSINESS DAY DELIVERY

GORDON J. MACDONALD
ATTORNEY GENERAL OF NEW HAMPSHIRE
SUSANP. McGINNIS
SENIOR ASSISTANT ATTORNEY GENERAL
Criminal Justice Bureau7
33 Capitol Street
Concord, NH 03301
(603} 271-3671
susan.mcginnis@doj.nh.gov

Dan Hynes
Liberty Legal Services
212 Coolidge Ave.
Manchester, NH 03102
(603) 583-4444

I, Howard Daniels, declare under penalty of perjury under the laws of the United States of America
that the foregoing is true and correct, executed on July 8, 2019, pursuant to Supreme Court
Rule 29.5(c). All parties required to be served, have been served.

,d_~~ t.[)~
Howard Daniels

Sworn to me this
July 8, 2019
NADIA A. OSWALD HAMID
Notary Pubhc, State of New York
No , 01056101366
Qualified in Kings County
sion Expires November 10, 2019

Case Name: State of New Hampshire v. Lilley

Docket No. _ __

